X
See Attachment A.

X

/s/ Molly E. Meacham
December 15, 2020
Molly E. Meacham
Babst, Calland, Clements and Zomnir, PC
Two Gateway Center, 8th Floor, 603 Stanwix St.
Pittsburgh, PA
412.600.8582

David H. Thompson / dthompson@cooperkirk.com

15222

WAIVER
Supreme Court of the United States
No. 20-740
James Bognet, et al

v.

Kathy Boockvar, Secretary of
Pennsylvania, et al.
(Respondents)

(Petitioners)

ATTACHMENT A

I will be appearing as counsel on behalf of the following Appellees in the captioned
action:
Armstrong County Board of Elections
Bedford County Board of Elections
Blair County Board of Elections
Centre County Board of Elections
Columbia County Board of Elections
Dauphin County Board of Elections
Fayette County Board of Elections
Huntingdon County Board of Elections
Indiana County Board of Elections
Lackawanna County Board of Elections
Lawrence County Board of Elections
Montour County Board of Elections
Northumberland County Board of Elections
Venango County Board of Elections
York County Board of Elections

/s/ Molly E. Meacham

